No. 20-989

 

 

IN THE

Supreme Court of the United States

CITY OF NEWARK,

Petitioner,
Vv.

FRATERNAL ORDER OF POLICE,
NEWARK LODGE No. 12,

Respondent.

On Petition for Writ of Certiorari to the
New Jersey Supreme Court

BRIEF OF AMICUS CURIAE JERSEY CITY
POLICE OFFICERS BENEVOLENT
ASSOCIATION IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,173 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 29, 2021.

 

Wilson-Epes Printing Co., Inc.
